TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Withholding Compliance Program Results
                     Are Trending Favorably, but Program
                          Enhancements Are Needed



                                          March 23, 2010

                              Reference Number: 2010-40-030




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2(c) - Law Enforcement-Tolerance




 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               March 23, 2010


 MEMORANDUM FOR COMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Withholding Compliance Program Results Are
                               Trending Favorably, but Program Enhancements Are Needed
                               (Audit # 200840035)

 This report presents the results of our review to evaluate the effectiveness of case selection and
 processing in the Withholding Compliance Program (WHC). This audit was conducted as part
 of our Fiscal Year (FY) 2009 Annual Audit Plan and addresses the major management challenge
 of Tax Compliance Initiatives.

 Impact on the Taxpayer
 The WHC is based on the premise that by addressing underwithholding at its source,
 noncompliance problems can be resolved early in the process and, thereby, prevent future
 delinquencies that can be costly to both the Internal Revenue Service (IRS) and taxpayers.
 While the WHC is helping ensure individuals with underwithholding problems are meeting their
 obligations to pay taxes, steps are needed to ensure opportunities are not being missed to address
 underwithholding problems among higher wage earners and WHC actions are not unnecessarily
 burdening taxpayers and employers.

 Synopsis
 The taxes collected through the WHC are substantial and trending upward. In its FY 2008
 Performance and Accountability Report, 1 the Government Accountability Office estimated the
 WHC resulted in the collection of $423 million of additional income taxes for FYs 2005 and
 2006 and through part of FY 2007. The Government Accountability Office further estimated the

 1
     GAO Performance & Accountability Report Fiscal Year 2008 (GAO-09-1SP, dated November 2008).
                             Withholding Compliance Program Results Are
                      Trending Favorably, but Program Enhancements Are Needed



WHC generated additional tax revenues of $309 million in the remainder of FY 2007 and much
of FY 2008. Although compliance and collection data are trending favorably under the WHC,
there are two steps that could be taken to enhance the operational effectiveness of the WHC.
First, a statistically valid risk-based approach needs to be explored to select problem withholding
cases for possible lock-in letter 2 issuance. The current approach is based on the WHC’s limited
resources, analysis of Tax Year 2001 return characteristics, the judgment and experience of IRS
personnel, and certain other risk factors that include **************2(c)*****************
****2(c)****************************. While the approach has successfully identified a
number of underwithholding cases, it does have some limitations. The most significant
limitation, perhaps, is that the *************2(c)********************************* in
withholdings are not progressive since the withholding rate remains constant as the amount of
wages increases. Consequently, the WHC may be missing opportunities to detect and address
withholding problems among higher wage earners. Moreover, some in the taxpaying public
might perceive that an approach using a constant factor of ****2(c)***************** is not
as impartial as it could be because individuals at higher wage levels can have withholding
problems and avoid being selected for possible lock-in letter issuance.
Another benefit that might be realized by better ensuring withholding problems among high
wage earners are detected and addressed is increased tax collections. We analyzed how various
percentage reductions in the number of lower wage earner cases might affect tax collections by
replacing them with higher wage earner cases and found the additional withholding taxes that
could be generated over a 5-year period ranged from $318.7 million to $1.6 billion. This range
represents the potential revenue depending on what percent of lower dollar cases are replaced by
higher dollar ones (1–5 percent).
The second step that could be taken to enhance the WHC involves ensuring lock-in letter
issuance is not unnecessarily burdening employers and taxpayers. During the course of our
review, WHC officials acknowledged that more could have been done to complete and document
a comprehensive review of existing computer programs that affect the issuance of lock-in letters
and to identify instances in which the computer programs are not functioning in accordance with
the intent of IRS policies and procedures.

Recommendations
We recommended that the Director, Compliance, Wage and Investment Division, should develop
and implement a statistically valid plan to study the underwithholding compliance risk
throughout all segments of the wage-earner population and use the results to adjust, if necessary,
the case selection methods in the WHC. The Director, Compliance, Wage and Investment

2
  The lock-in letter directs the employer to withhold taxes for a specific employee at the specified rate. The lock-in
letter to the taxpayer informs them of the instructions provided to his/her employer.
                                                                                                                         2
                         Withholding Compliance Program Results Are
                  Trending Favorably, but Program Enhancements Are Needed



Division, should also ensure actions are taken to correct the computer programs that initiate
lock-in letters and research the employers we identified that may have been incorrectly issued
lock-in letters to determine if they are overwithholding for any employees and, if necessary,
correct the withholding.

Response
IRS management agreed, in general, with our recommendations and has or will take actions in
response to those recommendations. The IRS will perform a statistically valid study of WHC
cases to formulate a risk-based decision for case creation and, if necessary, use the results to
adjust the selection methods for WHC cases. The IRS will also continue to pursue programming
changes to correct computer programs that initiate lock-in letters and will research employers we
identified in this audit to determine if they are overwithholding for employees and make
necessary corrections. In addition, as recommended, the IRS considered expanding this research
but chose not to, stating it would be cost prohibitive from a resource allocation standpoint. The
IRS also concurred that their corrective actions in response to our recommendations, along with
other planned WHC improvements, will result in significant revenue from additional
withholding. However, the full realization of the outcome measures in Appendix IV is
dependent upon IRS resources and may be negatively impacted by the recent economic
downturn. The IRS did express concern with the methodology used to determine if lock-in
letters were issued incorrectly; however, there was no specific disagreement with the number of
affected employers and taxpayers reported in Appendix IV. Management’s complete response to
the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                                 3
                               Withholding Compliance Program Results Are
                        Trending Favorably, but Program Enhancements Are Needed




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Withholding Compliance Program Results Are Enhancing
          Voluntary Compliance and Increasing Tax Collections ...............................Page 3
          A Statistically Valid Risk-Based Approach Needs to Be Explored
          to Select Problem Withholding Compliance Cases ......................................Page 4
                    Recommendation 1:........................................................Page 7

                    Recommendation 2: .................................................................. Page 8

          Management Needs to Better Ensure Accurate Computer Programming
          to Avoid Unnecessarily Burdening Taxpayers and Employers ....................Page 8
                    Recommendations 3 and 4: ..............................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Outcome Measures...............................................................Page 17
          Appendix V – Management’s Response to the Draft Report .......................Page 21
               Withholding Compliance Program Results Are
        Trending Favorably, but Program Enhancements Are Needed




                      Abbreviations

FY              Fiscal Year
GAO             Government Accountability Office
IRS             Internal Revenue Service
TIGTA           Treasury Inspector General for Tax Administration
TY              Tax Year
WHC             Withholding Compliance Program
                             Withholding Compliance Program Results Are
                      Trending Favorably, but Program Enhancements Are Needed




                                              Background

The Internal Revenue Code 1 generally requires employers to withhold taxes from employees’
(taxpayers’) pay so that taxes withheld can be paid to the Department of the Treasury on a
ratable basis throughout the year. Proper withholding helps to ensure that taxpayers do not file
returns at the end of the year owing a substantial amount of
tax. In Fiscal Year (FY) 2008, about $970.7 billion (more
                                                                   In FY 2008, more than
than one-third of total tax revenues for the year) were             one-third of total tax
collected through income tax withholding. Because of              revenues were collected
income tax withholding, tax payment compliance is                   through income tax
generally very high among those who have a sufficient                   withholding.
amount of taxes withheld from their pay.
The Internal Revenue Service (IRS) established the Withholding Compliance Program (WHC) in
FY 2005 to identify and address taxpayers with withholding problems so they can be brought
into compliance with Federal income tax withholding requirements. The WHC uses information
from Wage and Tax Statements (Form W-2) to identify taxpayers with insufficient withholdings.
Once identified, the WHC strives to increase the amount of tax withheld so the individuals are
better positioned to meet their tax obligations.
For most WHC cases, lock-in letters, 2 used to correct withholding, are automatically generated
and mailed by the IRS to both the employer (Letter 2800C) and the employee (Letter 2801C).
The Letter 2800C directs the employer to withhold taxes at a specified rate. The Letter 2801C
informs the taxpayer of the instructions provided to his/her employer. However, there are
conditions that may require manual review of the cases before issuing the lock-in letters. These
conditions include, among others, cases in disaster relief areas and some cases with mismatching
taxpayer identification numbers and names.
This review was performed at the Withholding Compliance function in Lowell, Massachusetts,
and the WHC Headquarters Office in Atlanta, Georgia, during the period August 2008 through
September 2009. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. Detailed



1
  26 U.S.C. Section 3402.
2
  The lock-in letter directs the employer to withhold taxes for a specific employee at the specified rate. The lock-in
letter to the taxpayer informs them of the instructions provided to his/her employer.
                                                                                                               Page 1
                        Withholding Compliance Program Results Are
                 Trending Favorably, but Program Enhancements Are Needed



information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 2
                           Withholding Compliance Program Results Are
                    Trending Favorably, but Program Enhancements Are Needed




                                    Results of Review

The IRS considers the WHC an important part of its overall approach to increasing voluntary
compliance. The WHC is based on the premise that by addressing underwithholding at its
source, potential compliance problems can be resolved early in the process and, thereby, prevent
future delinquencies that can be costly to both the IRS and taxpayers.
Since its inception, the WHC has identified numerous underwithholding cases and taken action
to help ensure the individuals involved are meeting their obligations to pay taxes. These actions,
in turn, have contributed to WHC results that are trending favorably in terms of enhancing
compliance and increasing tax collections. As the WHC grows, there are at least two steps that
could be taken to enhance its operational effectiveness. First, a statistically valid risk-based
approach needs to be explored to select problem withholding cases for possible lock-in letter
issuance. Second, management controls need strengthening to better ensure WHC actions are
not unnecessarily burdening taxpayers and employers.

Withholding Compliance Program Results Are Enhancing Voluntary
Compliance and Increasing Tax Collections
Prior to implementing the WHC, the IRS Questionable Form W-4 3 Program looked at problem
withholding cases that were identified, in large part, from information submitted by employers.
However, in November 2003, the Government Accountability Office (GAO) recommended that
the IRS assess the value of the Questionable Form W-4 Program and determine whether it should
be continued. 4 In response to the GAO recommendation, the IRS evaluated the Questionable
Form W-4 Program and ultimately replaced it with the WHC after concluding operational
changes were needed.
Among other changes implemented, the WHC no longer relies on employers to identify
taxpayers who may have insufficient withholding. Instead, computer programs have been
implemented to take advantage of information reported on Forms W-2 to identify taxpayers who
may not have enough Federal income taxes withheld from their wages. Once identified,
additional criteria are applied based on such factors as whether a return was filed and if a
substantial amount of taxes were owed after it was filed.


3
  A Form W-4 is a tax form prepared by an employee for an employer indicating the employee’s exemptions and
Social Security Number and enabling the employer to determine the amount of taxes to be withheld for the
employee.
4
  IRS’s Use of Information on Taxpayers Claiming Many Allowances or Exemption From Federal Income Tax
Withholding (Letter Report GAO-04-79R, dated November 2003).
                                                                                                       Page 3
                             Withholding Compliance Program Results Are
                      Trending Favorably, but Program Enhancements Are Needed



Under the WHC, statistics show a significant volume of withholding problems have been
identified as reflected in the number of lock-in letters issued to employees. For
Tax Year (TY) 2006, lock-in letters were issued to 141,332 employees who the WHC identified
as having withholding problems. According to WHC tracking data, this is a significant increase
from the 29,865 lock-in letters issued for TY 2003 and is important because the lock-in letters
appear to be having a positive impact on withholding and payment compliance. For example,
WHC data show the amount of taxes withheld from the wages of taxpayers who were issued
lock-in letters for TY 2003 increased from 2 percent to 14 percent between TY 2003 and
TY 2007. The number of balance due returns filed by these taxpayers also dropped from
78 percent to 32 percent during the same time period, which indicates the taxes they owe are
being paid on a more ratable basis throughout the year.
Besides enhancing compliance, the taxes collected through the WHC are substantial and trending
upward. In its FY 2008 Performance and Accountability Report, 5 the GAO estimated the WHC
resulted in the collection of $423 million of additional income taxes for FY 2005 through part of
FY 2007. The GAO further estimated the WHC generated additional tax revenues of
$309 million for the remainder of FY 2007 through much of FY 2008. While the compliance
and collection trends indicate the IRS is making notable progress to overcome shortcomings
noted in the Questionable Form W-4 Program, additional steps could be taken to enhance the
operational effectiveness of the WHC.

A Statistically Valid Risk-Based Approach Needs to Be Explored to
Select Problem Withholding Compliance Cases
Risk-based approaches are well recognized and used throughout the Federal Government and in
private industry as effective strategies for deciding how to best allocate limited resources to
achieve desired results. For example, the Treasury Inspector General for Tax Administration
(TIGTA) and the GAO have reported on and endorsed the risk-based approach the IRS has long
used to select individual and other types of returns for examination. From a reporting
compliance perspective, the risk-based approach the IRS developed and uses is critical because
the IRS has limited resources to examine returns filed each year. At a basic level, the IRS
approach involves statistically validating various risk factors by examining a small but
representative sample of returns. Once validated, the risk factors are used to identify and select
returns for audit from the entire population filed each year.
Unlike the methodology used to select returns for audit, the approach for selecting problem
withholding cases in the WHC has not been statistically validated. Instead, the process is based
on the WHC’s limited resources, analysis of TY 2001 return characteristics, the judgment and
experience of IRS personnel, and certain other risk factors that include ******2(c)**********


5
    GAO Performance & Accountability Report Fiscal Year 2008 (GAO-09-1SP, dated November 2008).
                                                                                                  Page 4
                                  Withholding Compliance Program Results Are
                           Trending Favorably, but Program Enhancements Are Needed



******2(c)*********************************************. Although the process has
successfully identified a significant number of underwithholding cases, it does have some
limitations.

The WHC may be missing opportunities to address problem withholding cases
among high wage earners
The most significant limitations, perhaps, are that the risk factors of *****2(c)*************
********2(c)****************** are not progressive since the withholding remains constant
as the wages increase and that the risk factors have not been statistically validated against a
representative sample of all underwithholding problem cases. As a result, the WHC may be
missing opportunities to detect and address underwithholding problems among higher wage
earners. Moreover, some in the taxpaying public might perceive that an approach that uses a
constant ********2(c)**************************** is not as impartial as it could be since
individuals at higher wage levels can have underwithholding problems and avoid being selected
for possible lock-in letter issuance actions.
*************************2(c)************************************************
****************************************************************************
****************************************************************************
****************************************************************************
****************************************************************************
To illustrate further, we used wage amounts and withholding percentages to stratify
139,766 individuals that, according to IRS data files, 7 ********2(c)******************** in
TY 2006 and filed a TY 2006 balance due return owing taxes ****2(c)********. Because each
of the 139,766 individuals in our population had *************2(c)**********************
none were identified as having a withholding problem by the WHC even though all were
underwithheld based on the 2006 (Circular E), Employer’s Tax Guide (Publication 15) issued by
the IRS. We next analyzed a statistically valid sample of 125 of the 139,766 individuals in our
population by comparing their withholdings to the withholdings from a statistically valid sample
of 100 of 29,681 individuals who were included in the WHC after filing a TY 2006 balance due
return.
Figure 1 summarizes our projected results and indicates the WHC is identifying a significant
number of individuals with underwithholding problems. However, Figure 1 also shows that
18,590 higher wage earners (those earning $200,000 or more) were not identified as potential
problem cases even though their average underwithholding was 4 times higher than that of lower
wage earners selected by the WHC for possible lock-in letter issuance.

*****************2(c)****************************************************************************************************************
7
 The files included information from the Wage and Tax Statements (Form W-2) and the Master File. The Master
File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                                                        Page 5
                          Withholding Compliance Program Results Are
                   Trending Favorably, but Program Enhancements Are Needed



         Figure 1: Comparison of Individuals That Filed a Balance Due Return
                 and Had a Potential Withholding Problem for TY 2006
                       Individuals Included in the WHC              Individuals Not Included in the WHC
                                                 Projected                                      Projected
                   Withholding    Number of      Average         Withholding     Number of      Average
                   Percentage     Individuals      Under         Percentage      Individuals      Under
 Wages Earned                                   Withholding                                    Withholding
 ***2(c)******to
                    ***2(c)****     28,712          ***2(c)***    ****2(c)****   121,176       ***2(c)***
 $199,999
 $200,000 or
                    ***2(c)****        969        ***2(c)****     ***2(c)****      18,590      ***2(c)***
 More

       Total                        29,681                                        139,766
Source: IRS provided TY 2006 WHC System Extract and Form W-2 File and TIGTA analysis of sampled TY 2006
Individual Master File data.

We also analyzed the underwithholding problem of individuals who did not file their TY 2006
returns (nonfilers). We used the wages and withholding percentages to stratify 89,627
individuals that, according to IRS data files, ***2(c)********************** in TY 2006 but
were nonfilers. Because each of the 89,627 individuals had ***2(c)**********************
***2(c)********, none were identified as having withholding problems by the WHC. We next
analyzed a statistically valid sample of 125 of the 89,627 individuals in our population by
comparing their withholding to the withholdings from a statistically valid sample of 100 of
98,210 nonfilers who were included in the WHC.
Figure 2 summarizes our projected results and indicates the WHC is identifying a significant
number of nonfilers with underwithholding problems. However, Figure 2 also shows that
4,784 higher wage earners (those earning $200,000 or more) were not identified as potential
problem cases even though their average underwithholding was more than 5 times higher than
that of lower wage earners selected by the WHC for possible lock-in letter issuance.




                                                                                                        Page 6
                             Withholding Compliance Program Results Are
                      Trending Favorably, but Program Enhancements Are Needed



                          Figure 2: Comparison of Nonfilers That Had a
                            Potential Withholding Problem for TY 2006
                         Individuals Included in the WHC                Individuals Not Included in the WHC
                                                     Projected                                          Projected
                     Withholding     Number of       Average        Withholding       Number of         Average
                     Percentage      Individuals       Under        Percentage        Individuals         Under
    Wages Earned                                    Withholding                                        Withholding
     ***2(c)***
                       ***2(c)***      94,766         ***2(c)***      ***2(c)***          84,843         ***2(c)***
      $199,999
     $200,000 or
                       ***2(c)***       3,444         ***2(c)***       ***2(c)***          4,784         ***2(c)***
        more

        Total                          98,210                                           89,627
Source: IRS provided TY 2006 WHC System Extract and Form W-2 File and TIGTA analysis of sampled TY 2006
Individual Master File data.

Another benefit that might be realized by better ensuring underwithholding problems among
higher wage earners are detected and addressed is increased tax collections. To demonstrate the
potential revenue effect, we analyzed how various percentage reductions in the number of lower
wage earner cases might affect tax collections by replacing them with higher wage earner cases.
The estimates begin in Calendar Year 2011 8 and are based on the difference between the
projected average underwithholding for lower wage earners (those earning between ***2(c)*** and
$199,999 in wages) and the higher wage earners (those earning $200,000 or more). Appendix IV
contains our complete analysis and shows that when using Calendar Year 2006 constant dollars,
the additional withholding taxes that could be generated over a 5-year period 9 (Calendar
Years 2011–2015) ranged from $318.7 million to $1.6 billion. This range represents the
combined potential revenue for both filers and nonfilers, depending on what percent of lower
dollar cases are replaced by higher dollar ones (1 to 5 percent).

Recommendations
The Director, Compliance, Wage and Investment Division, should:
Recommendation 1: Develop and implement a statistically valid study to assess the
underwithholding compliance risk throughout all segments of the taxpayer population.




8
  The estimates start in Calendar Year 2011 to give the IRS time to react to our report and its recommendations.
9
  This projection assumes all conditions, such as the withholding rates, that existed at the time of our review will
remain the same over the 5-year period.


                                                                                                                Page 7
                              Withholding Compliance Program Results Are
                       Trending Favorably, but Program Enhancements Are Needed



           Management’s Response: IRS management agreed with our recommendation and
           will analyze a statistically valid sample in order to make a risk-based decision for WHC
           case creation.
Recommendation 2: Use the results of the risk factor validation study to adjust, if necessary,
the selection methods that identify and prioritize the taxpayers with underwithholding problems
for lock-in letter issuance.
           Management’s Response: IRS management agreed with our recommendation. If
           the results of the statistically valid sample study warrant, adjustments will be made to the
           WHC case selection methodology to improve the identification and selection of taxpayers
           requiring lock-in letters.

Management Needs to Better Ensure Accurate Computer
Programming to Avoid Unnecessarily Burdening Taxpayers and
Employers
The GAO Standards for Internal Control in the Federal Government requires agencies to
establish controls that ensure operations are carried out in a manner that adheres to management
policies and procedural requirements. During the course of our review, WHC officials
acknowledged that more could have been done to complete and document a comprehensive
review of existing computer programs that affect the issuance of lock-in letters and to identify
any instances in which computer programs are not functioning in accordance with the intent of
IRS policies and procedures. As a result, thousands of taxpayers and their employers are at risk
of having to incur the time and expense (i.e., burden) of dealing with lock-in letters that they
should not have received.

Computer program flaws can cause lock-in letters to be initiated against
compliant taxpayers
Under the Internal Revenue Code, 10 the IRS has authority to bring taxpayers who have
underwithholding problems into compliance with Federal income tax withholding requirements.
This is accomplished through an automated process that issues two computer-generated lock-in
letters. One letter (Letter 2800C) directs the employer to begin withholding taxes at a new
higher rate that the IRS determines and specifies in the letter. The second letter (Letter 2801C)
advises the taxpayer of the actions being taken and steps that can be taken to request a change of
the determination. For employers who do not follow IRS directions, the consequences can be
severe. According to the Internal Revenue Code, employers who fail to increase withholding, as
directed, can be held liable for the additional taxes specified in the lock-in letter.


10
     26 U.S.C. Sections 3402 and 3403.
                                                                                                Page 8
                         Withholding Compliance Program Results Are
                  Trending Favorably, but Program Enhancements Are Needed



We tested a statistical sample of 200 of 127,891 taxpayers selected by the WHC because of a
TY 2006 underwithholding problem. We found 28 of the 200 taxpayers had 45 lock-in letters
incorrectly issued to their employers. In each case, the taxpayer had annual earnings that were
less than the $2,650 threshold for withholding Federal income taxes according to the
2006 (Circular E), Employer’s Tax Guide (Publication 15) issued by the IRS. When projected to
the population from which we selected our sample, we estimate 35,530 employers were
unnecessarily issued lock-in letters when their employees’ TY 2006 annual earnings were below
the $2,650 threshold.
To determine whether other computer programming problems may exist, we expanded our
testing and found three other areas in which unnecessary computer-generated lock-in letters were
issued. Although we used statistically valid sampling techniques in only the first of the three
areas discussed below, our results clearly indicate that controls over computer programs need
strengthening to better ensure they function in accordance with the intent of IRS policies and
procedures.
The first area involved taxpayers who were selected by the WHC after they were incorrectly
identified as nonfilers with an underwithholding problem. Our computer analysis of IRS tax
accounts for the 98,210 nonfiler cases that were selected by the WHC for TY 2006 showed
1,257 taxpayers had, in fact, filed TY 2006 tax returns under a secondary identification number.
Moreover, our review of a statistical sample of 70 of the 1,257 cases found that 61 not only filed
a TY 2006 return, but also had sufficient withholdings. When projected into the population from
which we selected our sample, we estimate 1,095 taxpayers were unnecessarily issued lock-in
letters.
The second area involved 11 employers who, according to WHC records, were issued lock-in
letters for the same employee within a 12-month period. According to WHC procedures, a
second lock-in letter should not be issued until at least a year has elapsed from the issuance of
the initial letter. Since the purpose for the 12-month rule is to allow the employer and employee
sufficient time to correct the problem, the second letter may not be necessary if the employer and
employee are correcting the problem by increasing the amount of withholding. During our
discussions on a draft of this report, IRS officials stated that steps to correct the programming
error were implemented in March 2009. Since the programming change fell outside the time
period from which we selected our sample cases for review, we did not assess the effectiveness
of this corrective action.
The final area involves issuing multiple lock-in letters in an attempt to address underwithholding
cases that have mismatched taxpayer names and identification numbers on Forms W-2.
Mismatched taxpayer names and identification numbers can occur for a variety of reasons. For
example, an employee could inadvertently provide an employer with a wrong identification
number or an employer could make an error when recording an otherwise valid identification
number on the document. It is also reasonable to assume that some employees who may want to
hide their identities and not pay taxes that they may otherwise owe would provide incorrect

                                                                                           Page 9
                           Withholding Compliance Program Results Are
                    Trending Favorably, but Program Enhancements Are Needed



identification numbers to those that hire them. Nevertheless, several studies, 11 including those
that the TIGTA, the IRS, and the GAO have completed, suggested legislative or regulatory
changes are needed to hold employers more accountable for obtaining accurate identification
numbers from the employees they hire.
Until such changes are implemented to address the root causes that largely account for the
mismatched names and identification numbers, computer programming routines need to be
enhanced to better resolve mismatched names and identification numbers before issuing
lock-in letters. For example, we found an instance where lock-in letters were sent to
13 employers after computer programming routines mistakenly attributed 13 Forms W-2 with the
same taxpayer identification number to 1 employee name, even though the statements were
originally submitted under several different employee names. As a result, it is likely that 12 of
the 13 employers spent time dealing with a lock-in letter associated with an employee’s name
that did not match any of the employee names on the Forms W-2 they submitted to the IRS.

Recommendations
The Director, Compliance, Wage and Investment Division, should ensure that actions are taken
to:
Recommendation 3: Correct the computer programs so that lock-in letters are issued in
accordance with the intent of IRS policies and procedures.
        Management’s Response: IRS management agreed with our recommendation and
        will continue to pursue necessary programming changes, which will be contingent on
        available resources and funding. Programming to determine if a lock-in letter has been
        issued in the prior 12 months was implemented in March 2009. In addition,
        programming changes to correct problems with mismatched taxpayer name and
        identification numbers, as well as with verification of Federal tax compliance based on a
        crossed-referenced identification numbers, have already been submitted.
Recommendation 4: Research each of the employers in our samples that may have been
affected by the programming errors to determine whether they are overwithholding any
employees. If employers are overwithholding, correct the withholdings as needed and consider
expanding the research to identify and correct additional instances where employers may be
affected by the programming errors and are overwithholding employees.



11
  Significant Tax Revenue May Be Lost Due to Inaccurate Reporting of Taxpayer Identification Numbers for
Independent Contractors (Reference Number 2001-30-132, dated August 24, 2001), TAX ADMINISTRATION:
IRS Needs to Consider Options for Revising Regulations to Increase the Accuracy of Social Security Numbers on
Wage Statements (GAO-04-712, dated August 2004), and The IRS’ Large and Mid-Size Division: The Form W-2
SSN/Name Mismatch Project, dated April 2003.
                                                                                                      Page 10
                 Withholding Compliance Program Results Are
          Trending Favorably, but Program Enhancements Are Needed



Management’s Response: IRS management partially agreed with our
recommendation. The IRS agreed to research employers identified in this audit and take
corrective actions, if necessary. However, due to resource constraints, the research will
not be expanded. The IRS stated that, as instructed in the lock-in letter, taxpayers may
contact the WHC at any time to request a lock-in be released or modified, and on average
approximately 85 percent of the taxpayers issued lock-in letters request some type of
modification.




                                                                                 Page 11
                            Withholding Compliance Program Results Are
                     Trending Favorably, but Program Enhancements Are Needed



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective was to evaluate the effectiveness of case selection and processing in the
IRS WHC. We validated the reliability of computer-processed data by scanning the data
received for blank, incomplete, illogical, or improper data. In addition, to ensure accuracy, we
traced a judgmental sample of each data set to IRS source files by using the Integrated Data
Retrieval System 1 and Individual Master File. 2 Unless otherwise noted, our limited tests of the
reliability of data obtained from the IRS systems did not identify any errors.
To accomplish the overall audit objective, we:
I.      Reviewed a significant amount of source material to gain an understanding of the WHC
        and the rules, procedures, and processes governing Federal income tax withholding.
        These sources included the Internal Revenue Code, publications and guidance issued by
        the IRS, the Internal Revenue Manual, and published TIGTA and GAO reports.
II.     Interviewed WHC management and computer programmers to assist in identifying and
        evaluating the procedures and processes in place to ensure the WHC is selecting
        taxpayers with underwithholding problems.
III.    Used the GAO Standards for Internal Control in the Federal Government to assess the
        policies, procedures, and practices the IRS had established for ensuring the WHC is
        selecting taxpayers with underwithholding problems.
IV.     Determined how many, if any, higher wage earners with underwithholding problems
        were not detected and addressed by the WHC by reviewing the following four sets of
        statistically valid samples from TY 2006.
        A. Evaluated a statistically valid stratified sample of 100 of 29,681 cases selected by the
           WHC that involved taxpayers who filed a TY 2006 balance due return. We used a
           95 percent confidence level, an expected dollar error of 7 percent, and a precision
           factor of ±5 percent to select a sample from a population stratified by wages ranging
           between $50,000 to $199,999; $200,000 to $999,999; $1,000,000 to $3,999,999; and
           $4 million or more.
        B. Evaluated a statistically valid stratified sample of 125 of 139,766 taxpayers who filed
           a TY 2006 balance due return owing $2,500 and reported wages of ***2(c)*******

1
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
2
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                             Page 12
                            Withholding Compliance Program Results Are
                     Trending Favorably, but Program Enhancements Are Needed



             *******2(c)***********************. Before selecting our sample, we refined
             the population down from 443,128 by stratifying it by wages and withholding ranging
             between ***2(c)**** to $99,999 and 10 percent or less in withholdings; $100,000 to
             $199,999 and 15 percent or less in withholdings; $200,000 to $499,999 and
             20 percent or less in withholding; $500,000 or more with 25 percent or less in
             withholdings. The stratified sample was based on a 95 percent confidence level, an
             expected dollar error of 9 percent, and a precision factor of ±5 percent.
        C. Evaluated a statistically valid stratified sample of 100 of 98,210 cases selected by the
           WHC that involved individuals the IRS determined did not file a TY 2006 return
           (nonfilers). In selecting the stratified sample, we used a 95 percent confidence level,
           an expected dollar error of 7 percent, and a precision factor of ±5 percent. The
           population and resulting sample were stratified by wages ranging between**2(c)** to
           $199,999; $200,000 to $999,999; $1,000,000 to $9,999,999; and $10 million or more.
        D. Evaluated a statistically valid stratified sample of 125 of the 89,627 individuals that
           the IRS determined were nonfilers but were not selected by the WHC. The
           population consisted of individuals with *****2(c)***************************
           *******2(c)**********************. Before selecting a sample, we refined the
           population down from 443,128 taxpayers by stratifying it according to wages and
           withholdings ranging between ***2(c)******** to $99,999 and 10 percent or less in
           withholdings; $100,000 to $199,999 and 15 percent or less in withholdings; $200,000
           to $499,999 and 20 percent or less in withholding; and $500,000 or more with
           25 percent or less in withholdings. The stratified sample was selected based on a
           95 percent confidence level, an expected dollar error of 9 percent, and a precision
           factor of ±5 percent.
V.      Assessed the automated process in the WHC for issuing lock-in letters to ensure
        computer programs were designed or functioned in accordance with the intent of
        established policies and procedures.
        A. Evaluated a statistical sample of 200 of 127,891 cases selected by the WHC for
           TY 2006 to determine the number of cases, if any, that involved taxpayers whose
           annual earnings were less than the $2,650 threshold for withholding Federal income
           taxes. In selecting the sample, we used a 95 percent confidence level, an expected
           dollar error of 7 percent, and a precision factor of ±5 percent.
        B. Analyzed the IRS Master File 3 accounts for the 98,210 nonfiler cases selected by the
           WHC for TY 2006 to determine if any of the individuals involved had, in fact, filed a
           TY 2006 return.


3
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                          Page 13
                              Withholding Compliance Program Results Are
                       Trending Favorably, but Program Enhancements Are Needed



           C. Used the results from analyzing IRS Master File accounts for the 98,210 nonfiler
              cases selected by the WHC for TY 2006 and evaluated a statistical sample of 70 of
              the 1,257 accounts that showed a TY 2006 return was filed to determine if any of the
              70 taxpayers had sufficient withholdings. The sample size was determined based on a
              95 percent confidence level, an expected error rate of 5 percent, and ±7.67 percent
              precision factor.
           D. Reviewed the Withholding Compliance System 4 database to identify instances where
              lock-in letters were issued for the same employee within a 12-month period or to
              multiple employers for the same employee.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the WHC’s policies, procedures, and
practices for selecting and processing individuals with underwithholding problems. We
evaluated these controls by reviewing source materials, interviewing management, analyzing
taxpayers’ wages and withholding data, and researching the Withholding Compliance System.




4
    A database designed to provide a means to monitor and control information related to the cases in WHC inventory.
                                                                                                           Page 14
                        Withholding Compliance Program Results Are
                 Trending Favorably, but Program Enhancements Are Needed



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Bryce Kisler, Audit Manager
Steven Stephens, Audit Manager
Alan Lund, Acting Audit Manager
Julia Tai, Lead Auditor
Kristi Larson, Senior Auditor
Stanley Pinkston, Senior Auditor
Jean Kao, Auditor




                                                                                      Page 15
                       Withholding Compliance Program Results Are
                Trending Favorably, but Program Enhancements Are Needed



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Chief, Filing Compliance, Wage and Investment Division SE:W:CP:FPC:FC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Wage and Investment Division SE:W




                                                                                Page 16
                             Withholding Compliance Program Results Are
                      Trending Favorably, but Program Enhancements Are Needed



                                                                                                   Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $83.7 million in additional tax withholding over a 5-year
    period. 1 The outcome is based on replacing 2 percent of the lower wage earners selected by
    the WHC who filed TY 2006 balance due returns with higher wage earners who filed balance
    due returns owing $2,500 or more in taxes for TY 2006 but were not selected by the WHC
    (see page 4).

Methodology Used to Measure the Reported Benefit:
To estimate the increased revenue, we analyzed how various percentage reductions in the
number of low wage earner cases and replacing them with higher wage earner cases might affect
the amount of additional tax withholding over 5 years (Calendar Years 2011–2015). In
estimating the additional withholdings each year, we analyzed two statistically valid stratified
samples of TY 2006 underwithheld taxpayers.
The first sample was comprised of 100 of the 29,681individuals who were included in the WHC
after filing a TY 2006 balance return and reporting wages of *****2(c)********************
*******2(c)**************. The second sample involved 125 of the 139,766 individuals who
were not included in the WHC after filing a TY 2006 return owing ****2(c)****************
**********2(c)******************************************************.
Next, we computed the difference in average underwithholding between the 2 samples, which
resulted in the higher wage earners (those earning $200,000 or more) showing their average
underwithholding was $25,825 greater than that of the lower wage earners (those earning less
than $200,000). We then added the $25,825 difference to 1, 2, 3, 4, and 5 percent of the lower
wage earners’ underwithholdings and multiplied the sums by the Consumer Price Index inflation
conversion factors to determine the value of Calendar Year 2006 dollars in Calendar Years 2011
through 2015. Figure 1 shows the amount of additional tax withholding that could be generated
over a 5-year period (Calendar Years 2011–2015) ranged from $41.9 million to $209.5 million,


1
  This projection assumes all conditions, such as the withholding rates, that existed at the time of our review will
remain the same over the 5-year period.
                                                                                                              Page 17
                               Withholding Compliance Program Results Are
                        Trending Favorably, but Program Enhancements Are Needed



depending on how many lower wage earner cases were replaced by higher wage earner cases
(1–5 percent). However, we conservatively limited the benefit to the additional tax withholding
that could be generated with a 2 percent reduction in lower wage earner cases.
          Figure 1: Increased Tax Collections by Replacing a Percentage of
    Lower Wage Earner Cases With Higher Wage Earner Cases Among Those Who
      Filed a Return and Had a Potential Underwithholding Problem for TY 2006

                                         Percentage Reduction
                                           (Dollars in Million)
     Calendar Year              1 Percent      2 Percent       3 Percent         4 Percent         5 Percent
           2011                       $8.1          $16.2             $24.3             $32.4              $40.5
           2012                       $8.2          $16.5             $24.7             $32.9              $41.2
           2013                       $8.4          $16.7             $25.1             $33.5              $41.9
           2014                       $8.5          $17.0             $25.5             $34.0              $42.6
           2015                       $8.6          $17.3             $25.9             $34.6              $43.3
     5-Year Total*                   $41.9          $83.7           $125.6            $167.4             $209.5
*Total may be off due to rounding.

Source: TIGTA analysis of IRS Individual Master File 2 and IRS-provided Wage and Tax Statement
(Form W-2) file for the sampled taxpayers.

Type and Value of Outcome Measure:
•    Increased Revenue – Potential; $553.4 million in additional tax withholding over a 5-year
     period. 3 The outcome is based on replacing 2 percent of the lower wage earners selected by
     the WHC who, according to WHC records, did not file TY 2006 returns (nonfilers) with
     higher wage earners who, according to IRS records, were TY 2006 nonfilers and
     underwithheld but were not selected by the WHC (see page 4).

Methodology Used to Measure the Reported Benefit:
To estimate the increased revenue, we analyzed how various percentage reductions in the
number of low wage earner cases and replacing them with high wage earner cases might affect
the amount of additional tax withholding over 5 years (Calendar Years 2011–2015). In
estimating the additional withholdings each year, we analyzed two statistically valid stratified
samples of TY 2006 underwithheld nonfiler taxpayers.

2
  The IRS database that maintains transactions or records of individual tax accounts.
3
  This projection assumes all conditions, such as the withholding rates, that existed at the time of our review will
remain the same over the 5-year period.
                                                                                                              Page 18
                               Withholding Compliance Program Results Are
                        Trending Favorably, but Program Enhancements Are Needed



The first sample was comprised of 100 of the 98,210 individuals who were included in the WHC
as nonfilers earning wages *******2(c)*********************************************.
The second sample involved 125 of the 89,627 nonfilers who were not included in the WHC
with wages of *****2(c)********************************.
Next, we computed the difference in average underwithholding between the 2 samples, which
resulted in the higher wage earners (those earning $200,000 or more) showing their average
underwithholding was $51,705 greater than that of the lower wage earners (those earning less
than $200,000). In calculating the underwithholding, to be consistent with IRS practices, we
assumed filing status of single with no exemptions. The actual underwithholding could be
reduced if the taxpayer ultimately has tax deductions and/or credits.
We then added the $51,705 difference to 1, 2, 3, 4, and 5 percent of the lower wage earners
underwithholdings and multiplied the sums by the Consumer Price Index inflation conversion
factors to determine the value of 2006 dollars in Calendar Years 2011 through 2015. Figure 2
shows that the amount of additional tax withholding that could be generated over a 5-year period
(Calendar Years 2011–2015) ranged from $276.8 million to $1.4 billion, depending on how
many lower wage earner cases were replaced by higher wage earner cases (1–5 percent).
However, we conservatively limited the benefit to the additional tax withholding that could be
generated with a 2 percent reduction in lower wage earner cases.
        Figure 2: Increased Tax Collections by Replacing a Percentage of
  Lower Wage Earner Cases With Higher Wage Earner Cases Among Those Who
   Did Not File a TY 2006 Return and Had a Potential Underwithholding Problem

                                         Percentage Reduction
                                           (Dollars in Million)
    Calendar Year               1 Percent     2 Percent   3 Percent       4 Percent         5 Percent
           2011                       $53.6      $107.1        $160.7          $214.2            $267.8
           2012                       $54.5      $108.9        $163.3          $217.8            $272.2
           2013                       $55.3      $110.6        $166.0          $221.3            $276.6
           2014                       $56.3      $112.3        $168.8          $225.0            $281.2
           2015                       $57.2      $114.3        $171.5          $228.7            $285.9
     5-Year Total*                   $276.8      $553.4        $830.2        $1,107.1          $1,383.6
*Total may be off due to rounding.

Source: TIGTA analysis of IRS Individual Master File and IRS-provided Form W-2 file for the sampled
taxpayers.




                                                                                                      Page 19
                             Withholding Compliance Program Results Are
                      Trending Favorably, but Program Enhancements Are Needed



Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 183,125 taxpayers and employers over a 5-year period 4 who
    may be forced to incur the time and expense (i.e., burden) of dealing with lock-in letters that
    they should not have received. The taxpayers either had annual earnings less than the $2,650
    threshold for withholding Federal income taxes or were incorrectly identified as a nonfiler
    with insufficient withholdings (see page 8).

Methodology Used to Measure the Reported Benefit:
We tested a statistical sample of 200 of 127,891 taxpayers selected by the WHC because of
TY 2006 underwithholding problems and found 28 of the 200 taxpayers had 45 lock-in letters
incorrectly issued to their employers. In each case, the taxpayer had annual earnings that were
less than the $2,650 threshold for withholding Federal income taxes according to the
2006 (Circular E), Employer’s Tax Guide (Publication 15) issued by the IRS. When projected
into the population from which we selected our sample, we estimate lock-in letters were
unnecessarily issued to 35,530 employers whose employees’ annual earning were below the
$2,650 threshold.
In addition, we computer analyzed the IRS tax accounts for the 98,210 nonfiler cases that were
selected by the WHC for TY 2006 and identified 1,257 taxpayers had, in fact, filed 2006 tax
returns under a secondary identification number. We then reviewed a statistical sample of 70 of
the 1,257 cases and found 61 that not only filed a 2006 return but also had sufficient
withholdings. When projected into the population from which we selected our sample, we
estimate lock-in letters were unnecessarily issued to 1,095 taxpayers. To estimate the number of
taxpayers and employers potentially impacted over a 5-year period, we added the
35,530 potential employers impacted annually to the 1,095 potential taxpayers impacted annually
and multiplied the sum by 5 years.




4
  This projection assumes all conditions, such as the withholding rates, that existed at the time of our review will
remain the same over the 5-year period.


                                                                                                              Page 20
           Withholding Compliance Program Results Are
    Trending Favorably, but Program Enhancements Are Needed



                                                 Appendix V

Management’s Response to the Draft Report




                                                       Page 21
       Withholding Compliance Program Results Are
Trending Favorably, but Program Enhancements Are Needed




                                                   Page 22
       Withholding Compliance Program Results Are
Trending Favorably, but Program Enhancements Are Needed




                                                   Page 23
       Withholding Compliance Program Results Are
Trending Favorably, but Program Enhancements Are Needed




                                                   Page 24
       Withholding Compliance Program Results Are
Trending Favorably, but Program Enhancements Are Needed




                                                   Page 25
